   Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




   Nursing Home Deficiency Trends and
Survey and Certification Process Consistency




                          JANET REHNQUIST
                           Inspector General

                             MARCH 2003
                             OEI-02-01-00600
                    OFFICE OF INSPECTOR GENERAL

                                           http://www.oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                   EXECUTIVE SUMMARY


    OBJECTIVE

               To describe trends in nursing home deficiencies and to assess consistency in the state
               implementation of the Medicare survey and certification process.

    BACKGROUND

               All Medicare and/or Medicaid participating nursing homes must be certified as meeting certain
               federal requirements. This certification is achieved through routine facility surveys, which the
               Centers for Medicare & Medicaid Services (CMS) contracts with states to perform. Nursing
               homes are typically surveyed by survey teams within 9-to-15 month intervals.

               This inspection uses data from 7 different sources: (1) national data from the Online Survey and
               Certification Reporting (OSCAR) system; (2) a mail questionnaire of all 51 state survey and
               certification directors; (3) telephone interviews with staff from all 10 regional CMS offices; (4)
               observations of nursing home surveys in a purposive sample of 6 states; (5) a review of 310
               survey reports from the same 6 states; (6) telephone interviews with a purposive sample of 32
               surveyors from 8 states; and (7) telephone interviews with a purposive sample of 32 nursing
               home administrators from the same 8 states.

    FINDINGS

    Nursing home deficiencies have increased since 1998

               Eighty-nine percent of nursing homes received at least one deficiency, an increase of 8
               percentage points. In 2001, 89 percent of all nursing homes that were surveyed received at
               least one deficiency, an increase from 81 percent in 1998. Only 11 percent, or 1,690 nursing
               homes, were deficiency-free in 2001. The total number of deficiencies rose from 64,608 in
               1998 to 94,131 in 2001. The average number of deficiencies increased from 5.1 in 1998 to
               6.2 in 2001.




Deficiency Trends and Survey and Certification Process Consistency   i                           OEI-02-01-00600
               Seventy-eight percent of nursing homes received a deficiency in one of the categories
               related to CMS’ definition of “substandard quality of care,” an increase of
               8 percentage points. The proportion of nursing homes that received a deficiency in any of the
               three categories related to “substandard quality of care” increased by 8 percentage points from
               70 percent in 1998 to 78 percent in 2001. The proportion of nursing homes that received an
               immediate jeopardy deficiency (2.3 percent) has increased slightly from 1998 to 2001.

    Wide variation exists among states in the number of deficiencies

               Nationally, 11 percent of all nursing homes surveyed in 2001 had no deficiencies. The
               proportion of deficiency-free nursing homes ranged from 33.5 percent in Virginia to    0
               percent in Nevada. Nationally, the average deficiency rate for nursing homes surveyed in 2001
               was 6.2 per nursing home; this ranged from 2.9 deficiencies per nursing home in Vermont to
               11.2 deficiencies in California.

    States differ in how they determine specific deficiency citations

               Our review of 310 survey reports reveals that different deficiency tags are being used to cite the
               same problem. In five of the six standard surveys we observed, we noted instances where
               surveyors did not consistently cite deficiencies. Further, states differ on how many deficiencies
               they will cite for a single problem of non-compliance.

    Four factors contribute to variability in citing deficiencies

               First, state agency directors acknowledge that the nursing home survey process has either a
               consultative or enforcement focus that affects the scope of the review. Second, unclear
               guidelines may contribute to different interpretations by surveyors when citing deficiencies.
               Third, while most states report some level of supervisory review for draft survey reports, the
               scope of these reviews differs, and states have various additional review processes they follow.
               Lastly, nearly all states report a high surveyor staff turnover, which contributes to inconsistency.

    States report following CMS nursing home survey protocols for staffing,
    scheduling, and pre-survey preparation; in the six sample states, survey teams
    completed all on-site survey tasks

               All state agency directors report following protocols for survey team size, make-up, and basic
               CMS training requirements. All state agencies report following protocols for pre-survey
               preparation and scheduling standard surveys within a 9-to-15 month interval. In




Deficiency Trends and Survey and Certification Process Consistency   ii                           OEI-02-01-00600
               addition, our on-site visits revealed the completion of all six on-site survey tasks and proper use
               of investigative protocols. Further, our review of survey reports shows that surveyors in the six
               sample states rely on the same types of evidence to document deficiencies.

    CONCLUSION

               Our analysis shows an increase in nursing home deficiencies since 1998. The proportion of
               nursing homes receiving deficiencies, the total number of deficiencies, and the key categories of
               deficiencies directly related to quality of care have all increased since 1998. In addition, wide
               variation exists among states in the proportion of deficiency-free nursing homes and in average
               deficiency rates.

               Our review of the survey process reveals states differ in how they determine both the number
               and type of deficiencies. We identified four factors that contribute to this variability in citing
               deficiencies: (1) an inconsistent survey focus; (2) unclear guidelines; (3) the lack of a common
               review process for draft survey reports; and (4) high surveyor staff turnover. As a result, we
               conclude that nursing home survey results are not always consistent among states, therefore
               limiting the comparability of the data. Further, we cannot conclude whether trends in
               deficiencies are due to deteriorating care, variations in the survey process, and/or increased
               enforcement. However, deficiencies are a key indicator of care in nursing homes and,
               therefore, the number of deficiencies and the increase in the number of deficiencies over the
               past four years raise concerns.

    RECOMMENDATIONS

               The Centers for Medicare & Medicaid Services should continue to improve its
               guidance to state agencies on citing deficiencies by providing guidelines that are both
               clear and explicit. Based on our findings, we recommend that CMS provide more specific
               guidance to states on quality of life deficiency tags and clearer directives on when to cite single
               or multiple deficiencies. We also recommend that CMS more clearly communicate to states
               that the focus of the nursing home survey process is not consultative. They should remind states
               of the dual function of this process, as specified in the Interpretive Guidelines. These two
               functions are: (1) to ensure compliance; and (2) to enter into a non-consultative information
               exchange for the purpose of information dissemination that may be of assistance to the facility in
               meeting long term care requirements.




Deficiency Trends and Survey and Certification Process Consistency   iii                          OEI-02-01-00600
               The Centers for Medicare & Medicaid Services, together with states, should develop
               common review criteria for draft survey reports. While most states incorporate some
               level of supervisory review for draft survey reports, they do not follow a standard process with
               common evaluation criteria. A more standard review process that utilizes the same criteria for
               assessing draft reports will help to ensure greater consistency across states. The CMS could
               incorporate this standardized assessment criteria as part of the Nursing Home State
               Performance Measures: Review Protocol Guidance, which all states are now required to
               follow.


    AGENCY COMMENTS

               We received comments on our draft report from the Centers for Medicare & Medicaid
               Services (CMS). The CMS concurred with our recommendations that it should continue to
               improve guidance to state agencies on citing deficiencies by providing guidelines that are both
               clear and explicit and that it should develop, together with states, a common review criteria for
               draft survey reports. The CMS also highlighted several actions they have taken to improve
               such guidance. The full text of CMS’ comments are contained in Appendix G.




Deficiency Trends and Survey and Certification Process Consistency   iv                          OEI-02-01-00600
                                  TABLE                          OF        CONTENTS

                                                                                                                         PAGE

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


    INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


    FINDINGS

               Nursing home deficiencies have increased since 1998 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


               Wide variation exists among states in deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


               States differ in how they determine deficiency citations . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


               Four factors contribute to variability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


               States report following CMS survey protocols . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


    CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


    AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


    APPENDICES

        A: Quality of care deficiency definitions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

        B: Selected deficiency definitions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

        C: Proportion of quality of care deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

        D: Scope and severity deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

        E: Proportions Deficiency-Free Facilities, Deficiency Removals by Deficiency Rates . . . . . . 36

        F: Federal Standards for Surveyor Training Requirements . . . . . . . . . . . . . . . . . . . . . . . . . 38

        G: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39


    ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42





Deficiency Trends and Survey and Certification Process Consistency     v                                              OEI-02-01-00600
                                                 INTRODUCTION

    OBJECTIVE

               To describe trends in nursing home deficiencies and to assess consistency in the state
               implementation of the Medicare survey and certification process.

    BACKGROUND

    Survey and Certification Process

               All Medicare and/or Medicaid participating nursing homes must be certified as meeting certain
               federal requirements. Certification is achieved through routine facility surveys, which the
               Centers for Medicaid & Medicare Services (CMS) contracts with states to perform. Nursing
               homes are subject to unannounced standard surveys no later than 15 months after the date of
               the previous standard survey. If, during the standard survey, a nursing home is found to have
               provided substandard quality of care, an additional extended survey is conducted within 2
               weeks. Nursing home surveys are typically conducted by a team of surveyors, with a team
               leader assigned to manage the process while on site. The survey team conducts various pre-
               survey tasks, such as reviewing existing program data, before going to the facility.

               When a nursing home fails to meet a specific requirement, the facility receives a deficiency
               citation. These deficiencies are categorized into 1 of 17 major areas, such as quality of care
               and physical environment. A total of 190 deficiencies with different tag numbers can be cited.
               Surveyors also consult a scope and severity matrix in determining the level of each deficiency.
               Survey data are entered into the Online Survey and Certification Reporting System (OSCAR).

    OBRA 1987

               The Omnibus Budget Reconciliation Act (OBRA) of 1987 (P.L. 100-203) expanded
               requirements that nursing homes had to comply with prior to Medicare certification, altered the
               principles for enforcement, and defined the state survey and certification process for
               determining compliance with federal standards of care. The CMS had several process goals
               for the implementation of the survey and enforcement systems: promoting consistency through
               extensive training, linking appropriate remedies to deficiencies, and avoiding unnecessary
               procedures.




Deficiency Trends and Survey and Certification Process Consistency   1                         OEI-02-01-00600
    1998 Nursing Home Oversight Improvement Program

               Ten years after the passage of OBRA 1987, a series of research studies and Senate hearings
               called attention to serious concerns about residents’ well-being. In response to these concerns,
               the 1998 Nursing Home Oversight Improvement Program, 1 designed to improve enforcement
               of nursing home quality, was announced. To implement the Nursing Home Oversight
               Improvement Program, CMS initiated steps to improve nursing home survey procedures,
               including:

                           C           staggering nursing home inspections, and starting a certain number on weekends
                                       and evenings;
                           C           more frequently inspecting nursing homes that are repeat offenders;
                           C           enhancing CMS review of nursing home surveys conducted by states;
                           C           terminating federal nursing home survey funding to states that fail to perform
                                       adequate surveys;
                           C           imposing immediate sanctions for a second violation of harming residents; and
                           C           ensuring that state agencies enforce sanctions and that sanctions are not lifted
                                       until compliance is verified.

               In September 2000, the General Accounting Office (GAO) reported that more deficiencies in
               nursing homes were being detected by state survey agencies, although it remained unclear if this
               was due to more skillful enforcement or deteriorating care. The GAO also reported that wide
               variation existed among states with regard to the proportion of homes cited for serious care
               deficiencies, ranging from 10.5 percent in Maine to
               58 percent in Washington.2 This gap suggests “variability within and between states in the
               consistency of adherence to survey interpretive guidelines in deficiency citations is problematic,
               at least on the basis of interstate variability in the number and types of deficiencies cited in the
               survey process.”3 Additionally, a 2000 interim report from CMS on the Nursing Home
               Oversight Improvement Program noted some positive progress (such as more surveys being
               conducted during off-hours), but also identified areas where stronger efforts were needed. For
               example, the report found that “significant variation in state deficiency citations may indicate
               problems with the state survey process. [Further],




               1
                   Enacted in 1998 during the Clinton administration as the Nursing Home Initiative.

               2
               GAO, “Sustained Efforts are Essential to Realize the Potential of Quality Initiatives,” (GAO/HEHS-00-197),
    September, 2000

               3
               Wunderlich, G., Kohler, P., Improving the Quality of Long Term Care, (Editors: Committee on Improving
    Quality in Long Term Care, Division of Health Care Services, National Institute of Medicine), 2001




Deficiency Trends and Survey and Certification Process Consistency     2                                     OEI-02-01-00600
               this degree of variation suggests that we need to be cautious when comparing results across
               states.”4

    CMS Oversight

               The CMS has various ongoing initiatives that address the issue of consistency and accuracy in
               the survey and certification process. These initiatives include: a national automated tracking
               system for surveyor training; an improved scope and severity matrix; cross regional surveys to
               assess consistency; the redesign of surveyor training; the development of surveyor performance
               measures; and contracting out for more comparative surveys.

               The CMS is also currently funding the second year of a contract to improve interpretive
               guidelines for scope and severity and deficiency tags. To date, CMS has reviewed five sets of
               tags and is beginning work for the next grouping of tags.

    METHODOLOGY

               This inspection uses data from 7 different sources: (1) national data from the Online Survey and
               Certification Reporting (OSCAR) system; (2) a mail questionnaire of all 51 state Survey and
               Certification Directors; (3) telephone interviews with staff from all 10 regional CMS offices; (4)
               observations of nursing home surveys in a purposive sample of 6 states; (5) a review of 310
               survey reports from the same 6 states; (6) telephone interviews with a purposive sample of 32
               surveyors 8 states; and (7) telephone interviews with a purposive sample of 32 nursing home
               administrators from the same 8 states.

    Analysis of OSCAR data

               We analyzed national data from OSCAR, which includes the results of all state nursing home
               surveys. This system contains the most current survey and the three previous surveys for every
               nursing home that is certified for Medicare and/or Medicaid. We downloaded all surveys
               conducted in 1998, 1999, 2000, and 2001.

               Our analysis is based on data we downloaded in May 2002. If a nursing home had more than
               one standard survey in a particular year, we included only the most recent standard survey for
               that year. We determined the total number of nursing homes surveyed, the




               4
              Michael Hash, Deputy Administrator of the Centers for Medicare & Medicaid Services, “Interim Report on
    Nursing Homes,” 2000.




Deficiency Trends and Survey and Certification Process Consistency   3                                    OEI-02-01-00600
               total number of deficiencies cited in those surveys, and the total number of nursing homes
               surveyed that had no deficiencies. We then calculated average deficiency rates by dividing the
               number of deficiencies by the number of nursing homes surveyed.

    Observations of nursing home surveys

               In order to get a wide variety of states, we selected a purposive sample of six states based on
               the following four criteria: 1) the number of nursing homes in the state, 2) the average deficiency
               rate, 3) the CMS regional office jurisdiction, and 4) geographical location. The six states
               include: Alabama, California, Maryland, Missouri, New York, and South Dakota. In five of
               the six sample states, we observed the final 2 days of a standard nursing home survey; in the
               sixth state, the survey ended earlier than anticipated, and we, therefore, observed only the final
               day. To reduce observer bias and enhance comparability across cases, we developed field
               instrumentation for observing and recording events. This included a structured checklist for the
               observation of survey activities and survey team interaction. We were especially interested in
               observations related to survey Task 5 (information gathering) and Task 6 (information analysis
               for deficiency determination). Further, we used a common interview guide to ask surveyors
               about their experiences and perspectives on the survey process.

    Review of survey reports

               From the 6 sample states, we reviewed 310 survey reports for standard surveys completed in
               calendar year 2001. We asked each of the 6 states to send us reports that included one or
               more citations for 13 specific deficiency tags. We focused our review on these 13 tags, either
               because they were among the top 10 deficiencies in 2000, and/or because we identified them
               as being potentially vulnerable to inconsistent citation. These 13 tags and the number of survey
               reports for each are identified in Appendix B.

               For each report, we used a standardized review protocol to determine the scope and severity
               of the deficiency cited, the nature of the problem cited, the sample size used in survey, and the
               type of evidence given to support the citation.

    State survey agency directors mail questionnaire

               We mailed a questionnaire to state nursing home Survey and Certification Directors in April and
               May 2002. All states and Washington D.C. responded to the questionnaire. We asked about
               each state agency’s program staffing and structure, survey process, state surveyor training and
               education, and state initiatives and experience with federal nursing home surveys. In addition,
               we asked respondents to rate the quality of care in nursing homes in their state and whether it
               has improved, declined, or remained about the same in



Deficiency Trends and Survey and Certification Process Consistency   4                           OEI-02-01-00600
               the last 3 years. Many of our questions were based on federal nursing home survey regulations
               and the State Operations Manual surveyor guidelines.

    Telephone interviews with CMS regional offices

               We interviewed staff from all 10 regional offices of the CMS in May 2002. In most cases, we
               interviewed the branch chief or regional administrator responsible for state operations and/or
               long term care survey and certification. During these interviews, we asked CMS staff about
               their oversight and monitoring activities. We specifically inquired about their regional staffing,
               the data they use to review state agencies’ performance, their survey protocols for Federal
               Oversight and Support surveys (FOSS) and comparative surveys, and their state training
               activities.

    Telephone interviews with state surveyors and nursing home administrators

               For the telephone interviews with state surveyors and nursing home administrators, we used the
               same purposive state sample selected for the on-site visits and survey report reviews. In
               addition, we selected one state that had a large increase (Connecticut) and one state that had a
               large decrease (South Carolina) in quality of care deficiencies over the last 4 years.

               State Surveyors. We asked each of the state survey agencies for a list of all surveyors in
               their state who had been a nursing home surveyor for at least 3 years. We then selected a
               random sample of 4 surveyors in each of our 8 sampled states for a total of 32 respondents.
               We asked the same questions that we asked state survey agency directors in addition to other
               questions about their observations in nursing homes.

               Nursing Home Administrators. To select a sample of nursing home administrators, we
               generated a list from OSCAR of nursing homes in each of our eight sampled states that had at
               least four standard surveys. We then randomly selected 4 nursing homes in each state for a
               total of 32 respondents. We asked these administrators the same set of questions that we
               asked state surveyors so that we could compare their responses.

    Limitations

               This inspection has several limitations. First, we only examined the survey process for standard
               surveys; we did not include extended surveys, follow-up surveys, initial certification surveys, or
               complaint surveys in our review. Second, we did not independently verify all of the information
               reported to us by state agencies in the mail




Deficiency Trends and Survey and Certification Process Consistency   5                           OEI-02-01-00600
               questionnaire. Third, our more detailed review of eight states is based on a purposive sample
               and, therefore, cannot be generalized to the universe of all states.

    Standards

               This inspection was conducted in accordance with the Quality Standards for Inspections
               issued by the President’s Council on Integrity and Efficiency.




Deficiency Trends and Survey and Certification Process Consistency   6                        OEI-02-01-00600
                                                           FINDINGS

               In 2001, 89 percent of nursing homes received at least one deficiency, an increase from 81
               percent in 1998. Total deficiencies increased by 46 percent to over 94,000, and the average
               number of deficiencies per nursing home rose from 5.1 to 6.2. Our analysis of OSCAR data
               also shows wide variation among states in the proportion of deficiency-free nursing homes and
               in average deficiency rates.

               Our review of the survey process further reveals that states differ in how they determine both
               the number and type of deficiencies. We identified four factors that contribute to this variability
               in citing deficiencies: (1) an inconsistent survey focus; (2) unclear guidelines; (3) the lack of a
               common review process for draft survey reports; and (4) high surveyor staff turnover. As a
               result, we conclude that nursing home survey results are not always consistent among states,
               therefore limiting the comparability of the data. Further, we cannot conclude whether trends in
               deficiencies are due to deteriorating care, variations in the survey process, and/or increased
               enforcement. However, deficiencies are a key indicator of care in nursing homes, and
               therefore, the number of and the increase in deficiencies over the past four years raise concerns.

    Nursing home deficiencies have increased since 1998

    Eighty-nine percent of nursing homes received at least one deficiency, an
    increase of 8 percentage points since 1998

               Surveyors can cite a nursing home for                                  Figure 1
               one or more deficiencies if it fails to               Proportion of Nursing Homes that Received
               meet certain Medicare program                                 Any Deficiency, 1998-2001
               requirements. In 2001, 89
               percent of all nursing homes that
               were surveyed received at least
               one deficiency. This proportion
               increased by 8 percentage
               points from 81 percent in 1998.
               (See Figure 1.) Conversely, the
               proportion ofnursinghomesthat
               were deficiency-free decreased
               from 19 percent in 1998 to
               11 percent in 2001. In 2001, a

                                                                                               Source: OSCAR data, 2002




Deficiency Trends and Survey and Certification Process Consistency    7                                OEI-02-01-00600
               total of 15,077 nursing homes were surveyed; only 1,690 nursing homes did not receive any
               deficiencies.

               As shown in Table 1 below, in 2001, nursing homes received an average of 6.2 deficiencies,
               an increase from 5.1 deficiencies in 1998. The total number of deficiencies rose by 46 percent,
               from 64,608 in 1998 to 94,131 in 2001. The total number of nursing homes that were
               surveyed grew by 20 percent during this time period, from 12,555 in 1998 to 15,077 in 2001.
                                                       Table 1
                                        Trends in Deficiencies, 1998-2001
                                                                     1998          1999          2000       2001          Percent
                                                                                                                          Change
                                                                                                                         1998-2001

                   Total Number of Deficiencies                      64,608        82,238       92,642     94,131          45.7%

                   Total Number of Nursing Homes                     12,555        14,313       14,879     15,077          20.1%
                   Surveyed

                   Average Deficiencies per                           5.1           5.7           6.2        6.2
                   Nursing Home
                                                                                                            Source: OSCAR data, 2002


    Seventy-eight percent of nursing homes received a deficiency in one of the
    categories related to “substandard
    quality of care,” an increase of 8
                                              Examples of Deficiencies in Three Categories
    percentage points from 1998 to 2001
                                                                                            Related to Substandard Quality of Care

                                                                              Quality of Care: includes 25 deficiencies, such as proper
               The proportion of nursing homes that                           treatment to prevent and treat pressure sores, and resident
                                                                              receives adequate supervision and assistance devices to
               received a deficiencyin anyof the three
                                                                              prevent accidents.
               “quality of care” categories increased
               by 8 percentage points, from 70                                Quality of Life: includes 19 deficiencies, such as a facility
               percent in 1998 to 78 percent in 2001.                         must promote care that maintains or enhances dignity, and
                                                                              a facility must provide housekeeping and maintenance
               These three categories are part of
                                                                              services necessary to maintain a sanitary, orderly, and
               CMS’ definitionof substandard quality                          comfortable interior.
               of care. They include: one that is
               specifically called quality of care,                           Resident Behavior and Facility Practices: includes 6
               another referred to as quality of life,                        deficiencies, such as a resident has the right to be free
                                                                              from any physical restraint for purposes of discipline and
               and a third that is resident behavior and                      convenience, and the facility may not employ persons
               facility practices. See Appendix A for                         who have been found guilty of abuse.
               a list of all deficiencies in each
               category.




Deficiency Trends and Survey and Certification Process Consistency             8                                              OEI-02-01-00600
              As shown in Table 2, each of these three individual categories increased during this time. The
              proportion of nursing homes that received a deficiency related to resident behavior and facility
              practices and to the specific quality of care category each increased by 9 percentage points
              between 1998 and 2001. Quality of life deficiencies increased by 5 percentage points.
              Appendix C lists changes to each of the deficiencies in these categories.
                                                        Table 2
             Proportion of Nursing Homes that Received at Least One Deficiency by Category
                                                      1998-2001

                                                                 1998            2001      Percentage Point Difference
                                                                N=12,555        N=15,077           1998-2001

            Resident Assessment                                 38.6%            50.1%               11.6%

            Dietary Services                                     31.7%           42.1%               10.3%

            Resident Behavior & Facility                         19.1%           28.2%                9.1%
            Practices

            Quality of Care                                      59.4%           68.4%                 9.0%

            Pharmacy Services                                    12.1%           20.1%                7.9%

            Infection Control                                    15.6%           20.7%                5.1%

            Administration                                       20.9%           26.0%                5.1%

            Physical Environment                                 20.7%           25.8%                5.1%

            Quality of Life                                      37.8%           43.1%                5.3%

            Resident's Rights                                    26.2%           29.9%                3.7%

            Laboratory Services                                   2.9%            4.9%                1.9%

            Physician Services                                    3.4%            4.7%                1.2%

            Dental Services                                       0.7%            1.2%                0.5%

            Nursing Services                                      5.0%            5.1%                0.0%

            Rehabilitation Services                               1.1%            1.0%               - 0.1%

            Other                                                 0.4%            0.3%               - 0.1%

            Admission, Transfer, Discharge                           2.5%         1.6%               - 0.9%
            Rights
               * Differences may be due to rounding.                                                 Source: OSCAR data, 2002
               **Bold indicates “quality of care” categories.




Deficiency Trends and Survey and Certification Process Consistency          9                                  OEI-02-01-00600
               As also shown in Table 2, deficiencies in three other categories experienced considerable
               increases. These include resident assessment and pharmacy and dietary services. The largest
               increase was in the proportion of nursing homes that received a deficiency related to resident
               assessment. This category increased by nearly 12 percentage points, from almost 39 percent in
               1998 to 50 percent in 2001. These deficiencies address whether a facility has developed care
               plans, provided the appropriate care and services to each resident, and modified the care plan
               based on the resident’s status.

               In addition, deficiencies related to dietary services rose by 10 percentage points from 32
               percent of nursing homes in 1998 to 42 percent in 2001. Deficiencies related to pharmacy
               services also increased by about 8 percentage points during this time. Dietary services include
               deficiencies that address whether a nursing home has provided the appropriate diet to meet the
               daily nutritional needs of each resident. Pharmacy services include deficiencies related to
               assuring the accurate dispensation and administration of drugs to residents.

    Nursing homes receiving immediate jeopardy deficiencies have increased slightly
          Surveyors assign a scope and severity rating for each deficiency. If a deficiency has a J, K, or
          L scope and severity rating as shown in Table 3 on the next page, it is considered to be
          immediate jeopardy. Immediate jeopardy is when death or serious injury actually or potentially
          occurs. The proportion of nursing homes that received an immediate jeopardy deficiency
          stayed about the same between 1998 and 2001. In 2001, a total of 2.3 percent, or 353
          nursing homes, had at least one immediate jeopardy deficiency. This proportion rose slightly
          from 1.4 percent, or 172 nursing homes, in 1998. (See Appendix D.)

               The proportion of nursing homes that received a deficiency considered substandard quality of
               care did not change substantially from 1998 to 2001. Substandard quality of care is a
               deficiency in any of the three “quality of care” categories that has a scope and severity rating, as
               shown by the shaded area in Table 3 on the next page. In total, 4.2 percent, or 639 nursing
               homes, received at least one substandard quality of care deficiency in 2001. This number
               decreased slightly from 4.5 percent in 1998. (See Appendix D.)




Deficiency Trends and Survey and Certification Process Consistency   10                           OEI-02-01-00600
                                                   Table 3
                  Percent of Nursing Homes with Deficiencies in Any of the Three Categories
                               of Quality of Care by Scope and Severity in 2001


                                                                                Scope of the Deficiency

                                                                                         Isolated     Pattern    Widespread
                        Severity of the Deficiency




                                                     Immediate jeopardy to resident            J            K          L
                                                     health or safety                        1.0%         0.8%       0.2%

                                                     Actual harm that is not                G               H          I
                                                     immediate jeopardy                   18.6%           1.3%       0.0%

                                                     No actual harm with potential          D           E              F
                                                     for more than minimal harm that      64.1%       37.6%          1.6%
                                                     is not immediate jeopardy

                                                     No actual harm with potential             A        B              C
                                                     for minimal harm                        0.0%     14.5%          7.7%
                     * Shading indicates the ratings classified as substandard quality of care.                     Source: OSCAR data, 2002
                    **Percentages in the table do not add to 4.2 percent because a nursing home may receive more than one deficiency
               considered substandard quality of care                 .


               As shown in Table 4 on the next page, a review of the trends of the scope and severity of all
               deficiencies shows a shift from G-level to D-level and to E-level ratings between 1998 and
               2001. This trend indicates that nursing homes are being cited for less severe deficiencies, while
               the scope of these deficiencies is staying the same or is slightly increasing. All of the other
               ratings have remained about the same or have increased slightly during this time period. The
               trends in the scope and severity ratings of deficiencies in the three “quality of care” categories
               follow a similar pattern to all deficiencies. (See Appendix D.)




Deficiency Trends and Survey and Certification Process Consistency                      11                                      OEI-02-01-00600
                                                          Table 4
                                   Percent of Nursing Homes that Received a Deficiency
                                    by Scope and Severity of All Deficiencies, 1998-2001

                                     Scope and                                Percentage Point Difference*
                                   Severity Level             1998    2001             1998-2001

                                           A                   0.0%    0.0%              0.0%

                                           B                 30.2%    32.7%              2.5%

                                           C                 21.4%    23.4%              2.0%

                                           D                 63.5%    77.2%              13.6%

                                           E                 47.1%    54.8%               7.7%

                                           F                 15.4%    19.8%              4.4%

                                           G                 28.1%    19.6%              - 8.5%

                                           H                   3.1%   1.5%               - 1.6%

                                           I                   0.3%   0.1%               - 0.2%

                                           J                   0.8%   1.2%                0.5%

                                           K                   0.6%   1.0%                0.4%

                                           L                   0.2%   0.4%                0.2%
                             * Differences may be due to rounding                Source: OSCAR data, 2002


    Over two-thirds of all state directors and sampled surveyors report that quality of
    care has stayed the same or declined over the last 3 years; nursing home
    administrators are more positive

               To gain further insight into the state of care in nursing homes, we surveyed all 51 state Survey
               and Certification Directors, and a purposive sample of 32 state surveyors and 32 nursing home
               administrators. As shown in Chart 1 on the next page, the majority of state directors and state
               surveyors report that quality of care has stayed the same or declined over the last 3 years.
               Nursing home administrators are more positive in that 59 percent say that care has improved
               over the last 3 years.




Deficiency Trends and Survey and Certification Process Consistency    12                                     OEI-02-01-00600
                                                  Chart 1
      Overall, has the quality of care in nursing homes improved, declined, or stayed about the
                                   same over the last 3 years?
                                                   Sample Size         Improved    Declined      Stayed the Same      Don’t Know

            Surveyors                                  n=32              31 %       34 %                34 %               0%

            Survey and Certification
            Directors                                  N=51              24 %       27 %                45 %               4%

            Nursing Home                               n=32              59 %        9%                 31 %               0%
            Administrators
                                                                                                         Source: OEI Survey, 2002


               Two-thirds of sampled surveyors further note that the percentage of nursing homes in their area
               that provide care they consider to be poor has increased or stayed about the same during this
               time. Some explain that staffing issues, such as high turnover, lack of training, poor quality staff,
               and less supervision contribute to “care getting worse.” In contrast, nursing home
               administrators most commonly attribute improvements in quality of care to committed staff, the
               survey process, quality initiatives, and the use of the clinical assessment tool, referred to as the
               Minimum Data Set.

               When asked to rate overall quality of care in nursing homes, some respondents expressed
               concerns. Chart 2 below shows that over one-third of sampled surveyors and 14 percent of all
               state directors rate quality of care as “fair” or “poor.” In addition, about two-thirds of
               surveyors and 44 percent of administrators report that at least 10 percent of nursing homes in
               their area provide care that they consider to be poor.

                                                   Chart 2
                 Overall, how would you rate the quality of care in nursing homes in your area?
                                                 Sample Size         Excellent    Good        Fair        Poor     Don’t Know

            Surveyors                                n=32              3%         59 %        28 %        6%           3%

            Survey and Certification
            Directors                               N=51               6%         78 %        14 %        0%           2%

            Nursing Home                             n=32             34 %        56 %        9%          0%           0%
            Administrators
                                                                                                     Source: OEI Survey, 2002




Deficiency Trends and Survey and Certification Process Consistency          13                                     OEI-02-01-00600
    Wide variation exists among states in the number of deficiencies

               Proportion of deficiency-free nursing homes. The proportion of nursing homes surveyed
               that were deficiency-free varied greatly among states. In 2001, 33.5 percent of nursing homes
               surveyed in Virginia had no deficiencies, while in Nevada no nursing home surveys resulted in
               deficiency-free nursing homes. Nationally, the average proportion of deficiency-free nursing
               homes for all surveys conducted in 2001 was 11 percent. Tables 5 and 6 below, show the five
               states with the highest and lowest proportion of deficiency-free nursing homes in 2001.
                                       Table 5                                             Table 6
                 Highest Deficiency-Free States                               Lowest Deficiency-Free States


                                                Proportion                                        Proportion
            State                            Deficiency-Free*             State                Deficiency-Free*

            Virginia                                 33.5 %               Nevada                        0%

            Massachusetts                            29.2 %               California                 2.1 %

            Vermont                                  28.2 %               Florida                    2.9 %

            New Hampshire                            24.6 %               Tennessee                  3.3 %


                                       Source: OSCAR data, 2002                              Source: OSCAR data, 2002

               Deficiency rates. Nationally, the average deficiency rate in 2001 was 6.2 deficiencies per
               nursing home. This ranged from a high of 11.2 deficiencies per nursing home in California to a
               low of 2.9 deficiencies per nursing home in Vermont. Tables 7 and 8 below show the five
               states with the highest deficiency rates and the five states with the lowest deficiency rates in
               2001.

                            Table 7                                                         Table 8
             States with Highest Deficiency Rate                             States with Lowest Deficiency Rate


             State                           Deficiency Rate*             State                Deficiency Rate*

            California                                11.2                Vermont                      2.9

            Arizona                                   10.2                Rhode Island                 3.3

            Washington                                10                  Wisconsin                    3.3
            D.C.
                                                                          Virginia                     3.5
            Nevada                                      9.9
                                                                          Utah                         3.7
                                       Source: OSCAR data 2002                              Source: OSCAR data 2002


Deficiency Trends and Survey and Certification Process Consistency   14                             OEI-02-01-00600
               In general, it appears that some states are more likely than others to cite deficiencies. For
               example, we observed that three states with the lowest deficiency rates (Vermont, Virginia, and
               Rhode Island) also have among the highest proportions of deficiency-free nursing homes.
               Three states with among the highest deficiency rates (California, Arizona, and Nevada) have the
               lowest proportions of deficiency-free nursing homes. Also overall, 20.4 percent of nursing
               homes are deficiency-free in states with low deficiency rates. For states with medium and high
               rates, the proportion of deficiency-free nursing homes is 10.9 percent and 5 percent,
               respectively. (See Appendix E.)

               This variability in the data was also discussed in a 2000 interim report from CMS on the
               Nursing Home Oversight Improvement Program. That report noted “significant variation in
               state deficiency citations from the national average of deficiencies cited may indicate problems
               with the state survey process. There is also substantial variation among states in all measures
               examined, which could be attributed to any number of different factors including actual
               differences in quality [of care], case-mix, or surveyor practices. This degree of variation
               suggests that we need to be cautious when comparing results across states.”

    States differ in how they determine specific deficiency citations

               Type of deficiency. Our review of 310 survey reports from the six sample states reveals that
               different deficiency tags are being used to cite the same problem. For example, in one state,
               two different survey teams cited the same problem under two different tags. In both cases, they
               observed that closets with cleaning compounds containing dangerous chemicals were not
               locked. In one survey, they cited this under tag F324 (inadequate supervision to prevent
               accidents). In the other survey, they cited this under tag F323 (the resident environment
               remains as free of accident hazards as is possible). Further, a survey report from one state cites
               tag F441 (infection control) for dietary staff not following hand washing policy. Two other
               survey reports in 2 different states cite tag F371 (store, prepare, distribute, and serve food
               under sanitary conditions) for the same problem.

               Our review of survey reports also reveals that different types of problems are being cited under
               the same deficiency tag. When reviewing 26 reports with a citation for F241 (resident dignity),
               we identified 17 different types of problems that were cited with this same deficiency. These
               included incidents as diverse as residents waiting for their food at mealtimes, facial hair on a
               female resident, staff using disrespectful language, and a bedpan not being emptied. We also
               noted that a few of the problems cited under the dignity tag, such as unanswered call lights,
               were cited under different deficiency tags in other survey reports.




Deficiency Trends and Survey and Certification Process Consistency   15                      OEI-02-01-00600
               Further, nine state agency directors volunteer that their staff will consider either the type of
               corrective action needed by the facility or a particular preference for one deficiency category
               over another when deciding what deficiencies to cite. Comments from two state agency
               directors illustrate these practices. One says that surveyors will look at the “main problem a
               facility needs to fix” when deciding what type of deficiency to cite, while another admits that
               surveyors “always go for a quality of care [deficiency], if relevant, over [an] assessment
               [deficiency].”

               Failure to cite deficiencies. In five of the six surveys we observed, we noted that surveyors
               did not consistently cite deficiencies for problems they observed in the nursing home. In one,
               the team did not cite a deficiency for a food service worker who failed to wash her hands until a
               surveyor told her to; the same team also did not cite a deficiency for the nursing home’s failure
               to write an incident report for a patient with a large bruise. Also, in three surveys we observed
               that surveyors did not cite deficiencies for problems because the nursing home submitted
               additional documentation that convinced the surveyors that corrective action was being initiated.
               For example, during one visit we observed that surveyors noted a strong, offensive smell in
               several of the residents’ rooms; CMS guidelines instruct surveyors to cite such a problem with
               a deficiency. However, the surveyors did not cite a deficiency because they accepted the
               facility’s assurance that soiled carpeting in those rooms would be removed and replaced with
               linoleum flooring. According to CMS guidelines, they should have cited this deficiency.

               Number of deficiencies. States differ on how many deficiencies they will cite for a single
               problem of non-compliance. While CMS guidelines do not prohibit that more than one
               deficiency be cited, eight state agency directors volunteer that their staff will cite only one tag
               for one problem of non-compliance. This is in direct contrast to other states in which surveyors
               may cite multiple tags for one problem of non-compliance. In one state we visited with a low
               deficiency rate, surveyors told us that they were instructed by the state agency to choose only
               one tag rather than multiple tags for a single observed problem.

    Four factors contribute to variability in citing deficiencies

               We identified four factors that contribute to variability in citing deficiencies across state agencies
               and among surveyors. These are:
                      1.       Inconsistent survey focus
                      2.       Unclear guidelines
                      3.       Lack of a common review process for draft survey reports
                      4.       High surveyor staff turnover




Deficiency Trends and Survey and Certification Process Consistency   16                         OEI-02-01-00600
               Inconsistent survey focus . Thirty-six state agency directors say that their state’s survey

               process is only somewhat consistent, acknowledging that this process may have a particular

               enforcement or consultative focus that affects the scope of the review. They cite several factors

               affecting the focus of nursing home surveys, including the political climate, the strength of the

               nursing home lobby, and changing federal and state regulations. Thirty-seven state agency

               directors further note that the focus of nursing home surveys has changed in the last 3 years. 

               Section IX of the State Operations Manual discusses the focus of the nursing home survey

               process by stating that, in addition to ensuring compliance with federal standards, surveyors

               should also transfer information to the facility about care and regulatory topics. The manual

               specifically states, “This information exchange is not a consultation with the facility, but is a

               means of disseminating information that may be of assistance to the facility in meeting long term

               care requirements.”5


               During our on-site visits to the six sample states, we observed survey teams utilizing different

               foci in their reviews. In one state, surveyors used a more consultative approach in making

               specific recommendations to the nursing home staff about treatment protocols for an individual

               resident. This approach contrasted with a more enforcement approach we observed in another

               state survey, where very little dialogue occurred between the survey team and nursing home

               staff. 


               Lastly, 21 states have state specific criteria governing nursing home surveys that may affect the

               focus of their federal surveys. These state criteria most commonly include nursing home staffing

               ratios and state life safety codes. In 14 of these states, the criteria have changed over the past

               3 years. 


               Unclear guidelines. Twenty-three state agency directors and 17 of 32 sampled surveyors

               assert that some groups of deficiencies are more vulnerable to inconsistent citation. Both of

               these groups identify deficiencies that are categorized under “quality of life” as being 

               the most vulnerable due to the lack of clarity and complexity of the federal guidelines. 

               They claim this fosters a subjective interpretation, thereby contributing to inconsistent citation

               between surveyors. One state agency director, voicing a common concern, asserts that “it is

               difficult to assign harm or immediate jeopardy to the quality of life tags. Quality of life tags can

               be more subjective. A clear directive is needed.” 


               As part of our analysis, we reviewed the State Operations Manual for deficiency tags under the

               “quality of life” and “quality of care” categories. We found some of the guidance to be

               inherently confusing. For example, guidance for tag F250 (social services)




               5
                 Title XVIII of the Social Security Act (the Act) is administered by CMS. Section 1819 (g)(2)(c) Survey
    Protocols, states that standard and extended surveys are to be conducted, based upon protocols prescribed by CMS
    in the State Operations Manual, to determine nursing home compliance.


Deficiency Trends and Survey and Certification Process Consistency   17                                     OEI-02-01-00600
               offers 14 examples of medically-related social services, 6 types of unmet needs, and 10
               conditions to which the nursing home must respond with social services. Also, some of the
               definitions for these tags are general and subjective, and while the guidance does offer
               numerous examples of specific scenarios that can be cited under each deficiency tag, in some
               cases the broad range of examples can be confusing. Lastly, we also noted that for certain
               deficiencies, surveyors are directed to refer to more than one deficiency category or tag for the
               same issue, without any explicit direction to cite or not cite under multiple tags when the facility
               is found to be out of compliance. For example, for tag F323 (facility is free of accident
               hazards), surveyors are instructed: “see F221 for guidance concerning the use of bed rails. See
               also §483.70(h) - Safe Environment. (F454 under Physical Environment).”

               Lack of consistent review process for draft survey reports. States do not utilize the same
               review processes for draft survey reports, as illustrated in Table 9 below. Only 42 states
               report that all of their draft reports had supervisory reviews in 2001. Further, 31 states have
               developed internal quality assurance (QA) teams and two states developed continuous quality
               improvement (CQI) teams (17 states have both). Only 18 states conduct reviews when reports
               change significantly from draft to final, while a few also incorporate specialized assessments as
               part of their review process.

                                                              Table 9
                                               State Survey Report Review Processes
                                                     Review Processes                            Number of
                                                                                                  States
                                  Supervisory Review for 100% of draft reports                         42

                                  QA Teams                                                             31

                                  Reviews for reports that changed significantly                       18
                                  from draft to final

                                  Specialized reviews for Deficiencies with                             8
                                  Scope and Severity of G level * and above

                                  Specialized review by Field Managers,                                 7
                                  Compliance Reviewers, or Enforcement Team

                                  Specialized reviews by Licensure and/or                                3
                                  Certification Administrators

                                  CQI Teams                                                             2
                                                             Source: State Agency Director Mail Questionnaire, 2002




Deficiency Trends and Survey and Certification Process Consistency        18                                      OEI-02-01-00600
               This inconsistency in state agencies’ review processes is reflected in the wide variation in
               revisions made to draft deficiency reports. State agencies report that an average of 5 percent
               of deficiencies are removed from draft survey reports before they become final. However, this
               removal rate ranges from 25 percent in one state to 0 percent in three other states. Further,
               state agencies report that an average of 6 percent of scope and severity determinations are
               downgraded from draft surveyors’ reports before they become final. This ranges from one
               state that reports 38 percent of deficiencies are downgraded to two states that say no
               deficiencies are downgraded.

               In addition, our analysis shows that the states with lower deficiency rates removed more
               deficiencies, on average, from draft survey reports than states with higher rates. Figure 2 below
               shows the average proportion of deficiencies removed from surveyors’ draft reports, for states
               with high, medium, and low deficiency rates.



                                                              Figure 2

                                               Proportion of Deficiencies Removed by 

                                                     Average Deficiency Rate

                                         8
                                                            7.4
                                         7
                                         6
                                         5
                                                                                 3.8
                                         4
                                                                                                       3
                                         3
                                         2
                                         1
                                         0
                                                   2.9 - 4.6               5 - 6.9                 7 - 11.2
                                                               Range of average deficiency rates
                                                                    [ low - medium - high ]



                                                                       Source: OSCAR Data 2002 and State Agency Director Mail
                                                                       Questionnaire

               High surveyor staff turnover. Fifty state agency directors report that it is very or somewhat
               difficult to replace survey staff when they leave, and more than half (31) say that registered
               nurses are the most difficult to replace. Based on their reporting, we determined that nationally,
               surveyors work an average of only 6.5 years for the state agency. We also determined that
               state agency directors have held their jobs on average for only 6.4 years. This high staff
               turnover affects the consistency of the survey process, as acknowledged by one survey director
               who says, “It is impossible to achieve consistency when surveyor turnover is 50 percent every
               year.” While states identified high survey staff turnover rates to be a problem, only three
               regional CMS offices look at staff turnover rates in their oversight of state agencies.

               On all our visits to the six sample states, surveyors told us that finding and retaining staff were
               problematic. They also express concern that high staff turnover impacts on the

Deficiency Trends and Survey and Certification Process Consistency          19                                           OEI-02-01-00600
               consistency of the survey process, since a high proportion of newer staff detracts from the
               continuity of surveyors’ experience. In fact, in one nursing home that we visited the survey
               team members were new, and we observed that these surveyors were more uncertain about
               what problems to cite and which deficiency tags to cite them with.

    States report following CMS nursing home survey protocols for
    staffing, scheduling, and pre-survey preparation; in the six sample
    states, survey teams completed all on-site survey tasks

               Survey team staff. States are required to place at least one qualified health professional on
               their survey team and all states’ agency directors report that they do so. More specifically, all
               states report that they included at least one registered nurse on their survey teams.6 Most states
               (75 percent) also report that they include a dietician or nutritionist on the team, and over half
               (57 percent) typically include a social worker. On all six of the surveys we observed, the teams
               had at least one registered nurse and one dietician or nutritionist.

               General guidelines from CMS suggest that the size of teams be governed by the size and type of
               the facility being surveyed, and 44 states say they typically use teams with three to four
               surveyors.7 In our purposive sample of six states, we observed an appropriate ratio of
               surveyors to facility size. In one of these states, we observed a survey being conducted for a
               350-bed facility, and the survey team included seven members. In two other states where
               surveys were conducted for smaller nursing homes, the survey teams were comprised of only
               three members.

               Surveyor training. Nearly all state surveyors meet basic CMS training requirements. On
               average, state agencies report that 96 percent of their surveyors have successfully completed
               CMS training - modules A and B of the Surveyor Minimum Qualifications Test (SMQT) (see
               Appendix F). Nationally, the average number of training days for surveyors last year was 10.
               Further, all 10 regional offices of the CMS say they review state surveyor training to ensure that
               state agency surveyors are meeting federal qualification standards.




               6
               Sections 1819(g)(2)(E) and 1919(g)(2)(E) of the Act and 42 CFR 488.314 require that: skilled nursing facility
    [SNF] and nursing facility [NF] standard surveys be conducted by a multidisciplinary team of professionals, at least
    one must be a registered nurse.

               7
                   7201. State Operations Manual Survey Team Size and Composition - A. Survey Team Size.--Survey team
    size will vary, depending primarily on the size of the facility being surveyed.

Deficiency Trends and Survey and Certification Process Consistency   20                                      OEI-02-01-00600
               Nearly all state agencies report that they conduct their own training in addition to CMS training. 

               Forty-eight have a training coordinator and 49 also have their own state surveyor training

               program. States typically use videos, satellite communications, presentations, and informal

               sessions during or following on-site visits to train their survey staff. Also, nearly all state

               agencies told us that they specifically focus their surveyor training in response to survey findings

               and provide training related to the documentation of deficiencies. 


               Team approach. All states report using a team approach in their survey process as suggested

               by CMS.8 State agencies say that they follow CMS guidelines on team communication that

               require teams to have daily discussions among themselves about their observations in order to

               facilitate information gathering and decision making. All state agencies report that their survey

               teams formally meet on a daily basis to discuss their findings and observations, to consult with

               each other, and to talk about scheduling uncompleted survey tasks. We also noted a strong

               team approach in the six surveys we observed. Surveyors continually consulted with one

               another regarding their findings, conferred with each other on any questions or concerns they

               had, and checked in on their individual progress to assure all necessary work was being

               completed.


               Survey schedule. All states report scheduling standard surveys within a 9-to-15 month

               interval as required by CMS guidelines.9 Twenty-six states report that in 2001 the interval

               between consecutive nursing home standard surveys in their state averaged 

               12 months. Eleven states told us they conducted these surveys within a shorter 

               (10-to-11 month) interval on average, and 14 states report conducting surveys within a longer

               (13-to-15 month) interval on average. 





               8
                  State Operations Manual, Appendix P - Survey Protocol for Long Term Care Facilities - Part 1-
    Introduction: 1D. TEAM COMMUNICATION - Throughout the survey process, the team (including specialty
    surveyors on-site at the time) should discuss among themselves, on a daily basis, observations made and
    information obtained in order to focus on the concerns of each team member, to facilitate information gathering and
    to facilitate decision making at the completion of the standard survey.

               9
                §7205. State Operations Manual - SURVEY FREQUENCY--The survey and certification provisions set
    forth in §§1819(g)(2)(A)(iii) and 1919(g)(2)(A)(iii) of the Act and in 42 CFR §488.308 require that each SNF and NF be
    subject to a standard survey no later than 15 months after the last day of the previous standard survey and that the
    statewide average interval between standard surveys of SNFs and NFs not exceed 12 months.




Deficiency Trends and Survey and Certification Process Consistency   21                                       OEI-02-01-00600
               Pre-survey preparation. Survey teams are required to prepare for surveys offsite by
               analyzing information about the nursing home that will enable them to focus their review most
               effectively.10 All state agencies report doing this pre-survey preparation. First, they all report
               that their surveyors use quality indicator reports in this preparation. These reports identify
               potential problems in the facility that may warrant further investigation, such as a high proportion
               of pressure sores or falls among its residents. Further, 96 percent of states’ survey teams use
               facility level reports generated by OSCAR, while 92 percent will also typically review the
               facility’s prior statements of deficiencies. Complaint data, information from the Ombudsman
               office, and resident level summary reports are also used by at least 72 percent of states in their
               pre-survey preparation.

               On-site survey tasks. In the surveys we observed in the six sample states, we saw evidence
               of, or directly observed the completion of, all on-site survey tasks required by CMS. We also
               observed survey teams’ use of specific investigative protocols suggested by CMS, such as
               medical record reviews, resident, group, and family interviews, observations of mealtimes, and
               direct care observations. In several of the states, surveyors expanded the initial scope of their
               review, based on observations from the initial facility tour.

               We observed that all six of the sample state surveys follow the same general process for Task 6
               of the survey process, information analysis for deficiency determination, and Task 7, the exit
               meeting with the nursing home. On the final day of the survey, before the exit, the survey team
               in all six states conducted team meetings, reviewed and analyzed their worksheets, discussed
               their findings, and used a team approach to reach consensus and make decisions. In all six
               states, the survey team also shared their preliminary findings with the nursing home during the
               exit meeting, and in five states the facility was given the opportunity to provide additional
               information either then or at a later date that it believed was pertinent to the initial survey
               findings.




               10
                 §7203. State Operations Manual - SURVEY PROTOCOL A. Introduction.--This protocol is established
    pursuant to §§1819(g)(2)(C) and 1919(g)(2)(C) of the Act to provide guidance to surveyors conducting surveys of
    long term care facilities participating in the Medicare and Medicaid programs. The protocol consists of survey
    procedures, worksheets, and interpretive guidelines.




Deficiency Trends and Survey and Certification Process Consistency   22                                 OEI-02-01-00600
                                                    CONCLUSION

               Our analysis shows an increase in nursing home deficiencies since 1998. The proportion of
               nursing homes receiving deficiencies, the total number of deficiencies, and the key categories of
               deficiencies directly related to quality of care have all increased since 1998. In addition, wide
               variation exists among states in the proportion of deficiency-free nursing homes and in average
               deficiency rates.

               Our review of the survey process reveals that states differ in how they determine both the
               number and type of deficiencies. We identified four factors that contribute to this variability in
               citing deficiencies: (1) an inconsistent survey focus; (2) unclear guidelines; (3) the lack of a
               common review process for draft survey reports; and (4) high surveyor staff turnover. As a
               result, we conclude that nursing home survey results are not always consistent among states,
               therefore limiting the comparability of the data. Further, we cannot conclude whether trends in
               deficiencies are due to deteriorating care, variations in the survey process, and/or increased
               enforcement. However, deficiencies are a key indicator of care in nursing homes, and
               therefore, the number of deficiencies and the increase in the number of deficiencies over the
               past four years raise concerns.




Deficiency Trends and Survey and Certification Process Consistency   23                       OEI-02-01-00600
                                      RECOMMENDATIONS


               The Centers for Medicare & Medicaid Services should continue to improve its
               guidance to state agencies on citing deficiencies by providing guidelines that are both
               clear and explicit. Based on our findings, we recommend that CMS provide more specific
               guidance to states for quality of life deficiency tags and clearer directives on when to cite single
               or multiple deficiencies. We also recommend that CMS more clearly communicate to states
               that the focus of the nursing home survey process is not consultative. They should remind states
               of the dual function of this process, as specified in the Interpretive Guidelines. These two
               functions are: 1) to ensure compliance; and 2) to enter into a non-consultative information
               exchange for the purpose of information dissemination that may be of assistance to the facility in
               meeting long term care requirements.

               The Centers for Medicare & Medicaid Services, together with states, should develop
               common review criteria for draft survey reports. While most states incorporate some
               level of supervisory review for draft survey reports, they do not follow a standard process with
               common evaluation criteria. A more standard review process that utilizes the same criteria for
               assessing draft reports will help to ensure greater consistency across states. The CMS could
               incorporate this standardized assessment criteria as part of the Nursing Home State
               Performance Measures: Review Protocol Guidance, which all states are now required to
               follow.




Deficiency Trends and Survey and Certification Process Consistency   24                        OEI-02-01-00600
                                       AGENCY COMMENTS

               We received comments on our draft report from the Centers for Medicare & Medicaid
               Services (CMS). The CMS concurred with our recommendations that it should continue to
               improve guidance to state agencies on citing deficiencies by providing guidelines that are both
               clear and explicit and that it should develop, together with states, a common review criteria for
               draft survey reports. The CMS also highlighted several actions they have taken to improve
               such guidance. The full text of CMS’ comments are contained in Appendix G.




Deficiency Trends and Survey and Certification Process Consistency   25                       OEI-02-01-00600
                                                                                                                  APPENDIX A


                                 Definitions of Quality of Care Deficiencies by Category

    Resident Behavior and Facility Practices

    Deficiency - (Ftag)                           Definition


    F0221	                                        Resident has the right to be free from any physical restraint for purposes of
                                                  discipline or convenience.

    F0222	                                        Resident has the right to be free from any chemical restraint for purposes of
                                                  discipline or convenience.

    F0223	                                        Resident has the right to be free from verbal, sexual, physical and mental abuse,
                                                  corporal punishment, and involuntary seclusion.

    F0224	                                        Facility must have written policies and procedures that prohibit abuse and
                                                  neglect.

    F0225                                         Facility may not employ persons who have been found guilty of abuse.

    F0226	                                        Facility must develop and implement written policies and procedures that
                                                  prohibit mistreatment, neglect, and abuse of residents, and misappropriation of
                                                  resident property
    Quality of Life

    Deficiency - (Ftag)                           Definition

    F0240                                         Facility must promote/enhance quality of life.

    F0241                                         Facility must promote care that maintains or enhances dignity.

    F0242	                                        Resident has the right to choose activities, schedules, interact with members of
                                                  community, and make choices about aspects of life in the facility.

    F0243                                         Resident has the right to organize and participate in resident groups.

    F0244                                         Facility must listen and respond to resident or family group.

    F0245	                                        Resident has the right to participate in social, religious, and community
                                                  activities.




Deficiency Trends and Survey and Certification Process Consistency       26                                          OEI-02-01-00600
    F0246	                                        Facility should have policies that accommodate residents’ needs and
                                                  preferences.

    F0247                                         Resident to receive notice before room or roommate in the facility is changed.

    F0248                                         Facility is to provide ongoing program of activities that fit resident.

    F0249                                         Facilities director must be fully qualified.

    F0250                                         Facility must provide medically-related social services.

    F0251                                         Facility with more than 120 beds must employ a qualified social worker on a full
                                                  time basis.

    F0252                                         Facility must provide a safe, clean, comfortable, and homelike environment.

    F0253	                                        Facility must provide housekeeping and maintenance services necessary to
                                                  maintain a sanitary, orderly, and comfortable interior.

    F0254                                         Facility must provide clean bed and bath linens that are in good condition.

    F0255                                         Facility must provide private closet space in each resident’s room.

    F0256                                         Facility must provide adequate and comfortable lighting levels in all areas.

    F0257                                         Facility must provide comfortable and safe temperature levels.

    F0258                                         Facility must provide comfortable sound levels.



    Quality of Care

    Deficiency - (Ftag)                           Definition

    F0309	                                        Facility to provide necessary care for the highest practicable physical, mental,
                                                  and psychosocial well being.

    F0310                                         Activities of daily living do not decline unless unavoidable.

    F0311                                         Resident is given treatment to improve abilities.

    F0312                                         Activities of daily living care is provided for dependent residents.

    F0313                                         Resident receive treatment to maintain hearing and vision.




Deficiency Trends and Survey and Certification Process Consistency         27                                            OEI-02-01-00600
    F0314                                         Proper treatment to prevent or treat pressure sores.


    F0315                                         Resident is not catheterized, unless unavoidable.


    F0316                                         Appropriate treatment for incontinent resident.


    F0317                                         No reduction of range of motion, unless unavoidable.


    F0318                                         Resident with limited range of motion receives appropriate treatment. 


    F0319                                         Appropriate treatment for mental or psychosocial problems.


    F0320                                         No development of mental problems, unless unavoidable.


    F0321                                         No naso-gastric tube, unless unavoidable.


    F0322                                         Proper care and services for resident with naso-gastric tube.


    F0323                                         Facility is free of accident hazards.


    F0324	                                        Resident receives adequate supervision and assistance devices to prevent
                                                  accidents.

    F0325	                                        Facility must maintain acceptable parameters of nutritional status, unless
                                                  unavoidable.

    F0326                                         Resident receives therapeutic diet, when required.

    F0327	                                        Facility must provide sufficient fluid intake to maintain proper hydration and
                                                  health.

    F0328                                         Facility must ensure that proper treatment and care is provided.

    F0329                                         Each resident’s drug regimen must be free from unnecessary drugs.

    F0330                                         No use of antipsychotic drugs, except when necessary.

    F0331                                         Residents who use antipsychotic drugs receive gradual dose reductions.

    F0332	                                        Facility must ensure that it is free of medication error rates of five percent or
                                                  greater.

    F0333                                         Residents are free of any significant medication errors.




Deficiency Trends and Survey and Certification Process Consistency         28                                          OEI-02-01-00600
                                                                                                                 APPENDIX B

                      Definitions of Selected Deficiencies for State Survey Report Review
    Deficiency - (Ftag)                                                          Definition

    F223       [n=14]                             Resident has the right to be free from verbal, sexual, physical and mental abuse,
                                                  corporal punishment, and involuntary seclusion.

    F241       [n=26]                             Facility must promote care that maintains or enhances dignity.

    F279       [n=24]	                            The facility must develop a comprehensive care plan for each resident that
                                                  includes measurable objectives and timetables to meet a resident’s medical,
                                                  nursing, and mental and psychosocial needs, as identified in the comprehensive
                                                  assessment. The care plan must describe the services that are to be furnished
                                                  and any services that would otherwise be required.

    F280       [n=18]	                            A comprehensive care plan must be developed by an interdisciplinary team,
                                                  within 7 days after the completion of the comprehensive assessment and be
                                                  periodically reviewed and revised by a team of qualified persons after each
                                                  assessment.

    F309       [n=34]                             Facility to provide necessary care for the highest practicable physical, mental,
                                                  and psychosocial well being.

    F314       [n=32]                             Proper treatment to prevent or treat pressure sores.

    F323       [n=21]                             Facility is free of accident hazards.

    F324       [n=37]                             Resident receives adequate supervision to prevent accidents.

    F327       [n=13]                             Facility must provide sufficient fluid intake to maintain proper hydration and
                                                  health.

    F329       [n=18]                             Each resident’s drug regimen must be free from unnecessary drugs.

    F353       [n=12]	                            The facility must have sufficient nursing staff to provide nursing and related
                                                  services to attain or maintain the highest practicable physical, mental, and
                                                  psychosocial well-being of each resident, as determined by the resident
                                                  assessments and individual plans of care.

    F371       [n=36]	                            The facility must store, prepare, distribute, and serve food under sanitary
                                                  conditions.

    F0441      [n=25]	                            The facility must establish and maintain an infection control program designed
                                                  to provide a safe, sanitary, and comfortable environment and to help prevent the
                                                  development and transmission of disease and infection.




Deficiency Trends and Survey and Certification Process Consistency        29                                         OEI-02-01-00600
                                                                                       APPENDIX C


                                                  Table C-1

                                       Proportion of Nursing Homes 

                      by Resident Behavior and Facility Practices Deficiencies, 1998-2001


                                                                                                     Percentage
                   Deficiency                           1998         1999    2000     2001              Point
                                                                                                     Difference*
                                                                                                     1998-2001

      Right to be free from physical                   12.8%         11.5%   10.9%    11.0%             -1.8%
      restraints

      Right to be free from chemical                    0.7%         0.4%    0.5%     0.4%              -0.3%
      restraints

      Right to be free from                             1.7%         2.0%    1.7%     1.5%              -0.1%
      abuse

      Must have policies that                           1.9%         2.6%    3.2%     2.5%               0.5%
      prohibit abuse and neglect

      May not employ persons guilty                     6.7%         8.7%    11.6%    10.8%              4.1%
      of abuse

      Facility must develop and                         0.0%         1.6%    8.7%     10.2%             10.2%
      implement written policies and
      procedures that prohibit
      mistreatment, neglect, and
      abuse of residents, and
      misappropriation of resident
      property**

                       Total                           19.1%         21.3%   28.0%   28.2%               9.1%
    * Differences may be due to rounding                                             Source: OSCAR data, 2002
    ** Deficiency was instituted in 1999




Deficiency Trends and Survey and Certification Process Consistency    30                      OEI-02-01-00600
                                                 Table C-2
                    Proportion of Nursing Homes by Quality of Life Deficiencies, 1998-2001
                                                                                                     Percentage
                      Deficiency                             1998     1999    2000    2001              Point
                                                                                                     Difference*
                                                                                                      1998-2001

      Facility promotes/enhances                             0.3%     0.2%    0.2%    0.3%                0.0%
      quality of life

      Facility promotes care that                           14.4%     16.8%   17.3%   17.2%               2.9%
      maintains/enhances dignity

      Resident has the right to make                         2.5%     2.6%    2.1%    2.0%               -0.5%
      choices about aspects of life in the
      facility

      Right to organize and participate in                   0.5%     0.6%    0.3%    0.3%               -0.2%
      groups

      Facility must listen and respond to                    0.4%     0.4%    0.6%    0.5%                0.0%
      groups

      Right to participate                                   0.1%     0.1%    0.1%    0.1%                0.0%
      in activities

      Should have policies that                              9.2%     9.6%    10.0%   9.7%                0.5%
      accommodate needs

      Receive notice of room or                              0.2%     0.2%    0.1%    0.1%               -0.1%
      roommate change

      Facility must provide an activity                      7.9%     8.8%    8.2%    7.8%               -0.2%
      program

      Facilities activity director must be                   0.4%     0.5%    0.5%    0.5%                0.1%
      fully qualified

      Facility provides medically-related                    7.9%     7.9%    6.7%    6.8%               -1.1%
      social services

      Facility must employ a qualified                       0.2%     0.3%    0.3%    0.2%                0.0%
      social worker

      Facility must provide a safe, clean,                   7.1%     7.3%    7.6%    7.7%                0.6%
      homelike environment

      Housekeeping maintains sanitary                       14.2%     15.5%   17.3%   16.7%               2.5%
      and comfortable interior




Deficiency Trends and Survey and Certification Process Consistency   31                       OEI-02-01-00600
    (Continued)

                                                                                                    Percentage
      Deficiency                       1998                     1999        2000    2001               Point
                                                                                                    Difference*
                                                                                                     1998-2001

      Clean bed and                    1.6%                     1.7%        1.4%    1.2%               -0.4%
      bath linens

      Private closet                   0.1%                     0.1%        0.1%    0.1%                0.0%
      space

      Adequate and                     0.6%                     0.4%        0.6%    0.4%               -0.1%
      comfortable
      light

      Safe and                         1.0%                     0.9%        0.9%    0.8%               -0.2%
      comfortable
      temperature
      levels

      Maintenance of                   1.7%                     1.8%        1.8%    1.5%               -0.2%
      comfortable
      sound levels

             Total                    37.8%                    41.9%        43.6%   43.1%              5.3%
    * Differences may be due to rounding                                             Source: OSCAR data, 2002




Deficiency Trends and Survey and Certification Process Consistency     32                    OEI-02-01-00600
                                                 Table C-3
                   Proportion of Nursing Homes by Quality of Care Deficiencies, 1998-2001
                                                                                                     Percentage
                      Deficiency                              1998        1999   2000    2001           Point
                                                                                                     Difference*
                                                                                                      1998-2001

      Provides necessary care for highest                    17.0%    21.1%      23.5%   23.5%           6.6%
      practicable well-being

      ADL’s don’t decline unless                              2.7%        2.2%   1.8%     1.6           -1.0%
      unavoidable

      Resident given appropriate                              5.6%        6.5%   6.0%    4.8%           -0.8%
      treatment to improve abilities

      ADL care provided for dependent                        11.9%    14.3%      13.7%   12.5%           0.6%
      residents

      Resident receives treatment to                          0.6%        0.7%   0.6%    0.6%            0.0%
      maintain vision and hearing

      Proper treatment to prevent or treat                   16.5%    18.1%      18.0%   17.1%           0.6%
      pressure sores

      Resident not catheterized, unless                       1.4%        1.3%   1.2%    1.6%            0.2%
      unavoidable

      Appropriate treatment for                              11.1%    11.7%      10.7%   10.2%          -0.9%
      incontinence

      No reduction in range of motion,                        0.8%        0.9%   0.7%    0.6%           -0.2%
      unless unavoidable

      Appropriate range of motion                             8.9%        9.9%   9.0%    8.0%           -0.9%
      treatment

      Appropriate treatment for mental or                     2.5%        2.7%   2.3%    1.9%           -0.6%
      psychosocial functioning

      No development of mental                                0.1%        0.2%   0.2%    0.2%            0.0%
      problems, unless unavoidable

      No naso-gastric tube, unless                            0.2%        0.1%   0.1%    0.1%           -0.1%
      unavoidable

      Proper care for residents with naso­                    4.6%        5.3%   5.8%    5.2%            0.6%
      gastric tubes




Deficiency Trends and Survey and Certification Process Consistency   33                     OEI-02-01-00600
    (Continued)

                                                                                                           Percentage
                      Deficiency                              1998        1999   2000         2001           Point
                                                                                                           Difference
                                                                                                           1998-2001

      Facility is free of accident hazards                   18.0%    18.7%      20.4%        21.9%            3.9%

      Adequate supervision and/or                            14.8%    17.9%      18.0%        18.5%            3.6%
      devices to prevent accidents

      Resident maintains nutrition status,                    8.0%        9.9%   9.4%         8.3%             0.3%
      unless unavoidable

      Resident receives therapeutic diet,                     1.9%        2.3%   3.1%         3.0%             1.1%
      when required

      Facility provides sufficient fluid                      3.2%        5.4%   6.0%         5.0%             1.9%
      intake to maintain health

      Proper treatment and care for                           3.6%        4.3%   4.6%         4.6%             1.0%
      special needs

      Drug regimen free from unnecessary                     10.5%    11.8%      12.4%        12.5%            2.0%
      drugs

      No use of antipsychotic drugs                           1.2%        0.8%   0.9%         0.9%             -0.3%
      except when necessary

      Gradual dose reduction of                               1.2%        1.1%   0.9%         1.1%             -0.1%
      antipsychotic drugs

      Facility is free of medication error                    5.6%        7.4%   10.0%        9.8%             4.2%
      rates of 5% or more

      Residents are free from significant                     3.0%        3.7%   4.4%         3.8%             0.9%
      medication errors

                          Total                              59.4%    65.3%      68.1%        68.4%            9.0%
    * Differences may be due to rounding                                            Source: OSCAR data, 2002




Deficiency Trends and Survey and Certification Process Consistency   34                          OEI-02-01-00600
                                                                                                                    APPENDIX D



                                                       Table D-1
                         Percentage of Nursing Homes that Received Substandard Quality of Care
                                     and Immediate Jeopardy Deficiencies, 1998-2001
                                                                                                                 Percentage Point
                                                         1998           1999           2000          2001           Difference
                                                                                                                    1998-2001

                  Substandard Quality                   4.5 %           4.8 %         4.5 %        4.2 %                 -0.3
                  of Care

                  Immediate Jeopardy                    1.4 %           1.4 %         2.1 %        2.3 %                 0.9
                                                                                                     Source: OSCAR data, 2002


                                                    Table D-2
                 Percentage of Nursing Homes by Scope and Severity of Quality of Care Deficiencies,
                                                    1998-2001
                           Scope and                                                                          Difference
                            Severity              1998               1999           2000      2001            1998-2001
                             Level

                                A                  0%                0%             0%        0%                  0%

                                B                13.0%               12.3%      14.3%         14.5%              1.5%

                                C                 6.4%               7.5%           9.0%      7.7%               1.3%

                                D                51.1%               56.6%      61.8%         64.1%              13.0%

                                 E               32.8%               35.8%      38.9%         37.6%              4.8%

                                 F                1.5%               1.9%           1.8%      1.6%               0.2%

                                G                26.5%               28.5%      22.7%         18.6%              -7.9%

                                H                 2.6%               2.7%           1.8%      1.3%               -1.3%

                                 I                0.1%               0.1%           0.1%      0.0%               -0.1%

                                 J                0.7%               0.7%           0.8%      1.0%               0.4%

                                K                 0.5%               0.4%           0.8%      0.8%               0.4%

                                 L                0.0%               0.1%           0.1%      0.2%               0.2%
                                                                                                      Source: OSCAR data, 2002




Deficiency Trends and Survey and Certification Process Consistency             35                                        OEI-02-01-00600
                                                                                                        APPENDIX E




                              State Deficiency Rates, Deficiency-Free Nursing Homes,
                            and Proportion of Deficiencies Removed From Draft Reports

                    State                        Deficiency Rate*    Deficiency-Free Homes   % Deficiencies Removed

                    Vermont
                          2.9 (low)              28.2                     2%
                    Rhode Island
                     3.3 (low)              24.2                    10%
                    Wisconsin
                        3.3 (low)              22.6                     5%
                    Virginia
                         3.5 (low)              33.5                     5%
                    Utah
                             3.7 (low)              16.5                     1%
                    North Dakota
                     3.9 (low)              10.7                    10%
                    Iowa
                             4.1 (low)              13.9                    25%
                    Pennsylvania
                     4.2 (low)              15.1                     5%
                    Nebraska
                         4.4 (low)              19.3                     7%
                    New Hampshire
                    4.4 (low)              24.6                     1%
                    Minnesota
                        4.6 (low)              14.4                 No Response
                    Massachusetts
                    4.6 (low)              29.2                    10%
                    Maryland
                         4.6 (low)              13.2                 No Response
                    Delaware
                       5.1 (medium)             15.8                     1%
                    Maine
                          5.1 (medium)              4.5                     1%
                    New Jersey
                     5.1 (medium)             14.5                     1%
                    Illinois
                       5.1 (medium)             13.3                 No Response
                    Montana
                        5.2 (medium)             10.6                 No Response
                    Colorado
                       5.2 (medium)             12.4                     5%
                    Ohio
                           5.2 (medium)             13.7                     2%
                    South Dakota
                   5.3 (medium)              6.5                     1%
                    New Mexico
                     5.5 (medium)             19.4                     2%
                    Missouri
                       5.5 (medium)             12.5                    10%
                    Connecticut
                    5.6 (medium)              6.3                     3%
                    New York
                       5.6 (medium)              8.6                    10%
                    Alaska
                         5.8 (medium)             14.3                     5%
                    Georgia
                        5.8 (medium)              9.5                 No Response
                    South Carolina
                 5.8 (medium)              9.5                     1%
                    North Carolina
                 6.1 (medium)              9.7                 No Response
                    Oregon
                         6.1 (medium)             18.0                     5%
                    Indiana
                        6.1 (medium)             12.9                 No Response
                    Mississippi
                    6.3 (medium)              4.4                     5%




Deficiency Trends and Survey and Certification Process Consistency     36                                 OEI-02-01-00600
                   (continued)
                    State                        Deficiency Rate* Deficiency-Free Homes % Deficiencies Removed
                    Oklahoma                      6.4 (medium)                  15.5                No Response
                    Texas                         6.4 (medium)                   9.8                    12%
                    Idaho                         6.5 (medium)                   8.2                    0%
                    Alabama                       6.5 (medium)                   8.6                    10%
                    Tennessee                     6.7 (medium)                   3.3                    1%
                    Kansas                        6.9 (medium)                  11.8                    1%
                    Louisiana                        7.0 (high)                  9.8                    2%
                    West Virginia                    7.5 (high)                  7.0                    2%
                    Florida                          7.9 (high)                  2.9                No Response
                    Arkansas                         7.9 (high)                  4.3                    0%
                    Kentucky                         8.2 (high)                  4.0                    5%
                    Michigan                         8.4 (high)                  4.0                    5%
                    Washington                       8.6 (high)                  4.8                No Response
                    Wyoming                          9.2 (high)                  8.8                    3%
                    Hawaii                           9.9 (high)                  5.9                    0%
                    Nevada                           9.9 (high)                    0                    5%
                    D.C.                            10.0 (high)                  5.0                    1%
                    Arizona                         10.2 (high)                  3.9                    2%
                    California                      11.2 (high)                  2.1                    8%
                                                                Source Data - OSCAR 2002 CMS mainframe download
                           *Deficiency Rate 

                           Low     (2.9 - 4.6 deficiencies per facility)

                           Medium (5 - 6.9 deficiencies per facility)

                           High     (7.0 - 11.24 deficiencies per facility) 


    For the population of states we categorized deficiency rates into low, medium, and high by determining the
    proportional deficiency rate (mean of deficiencies) and the distribution of the means or the maximum and minimum in
    each category of low, medium, and high rates of deficiencies. We computed a correlation coefficient (-.22425) for the
    variables, deficiency rate, and removal of deficiencies, which does not imply causal relationship.

    ------------------------- STATES WITH LOW DEFICIENCY RATES ------------------------------
                    Variable             N         Mean         Minimum       Maximum
                      Deficiency rate         13        3.96158       2.87179      4.64091

    ------------------------STATES WITH MEDIUM DEFICIENCY RATES -----------------------------
                    Variable                  N         Mean        Minimum      Maximum
                      Deficiency rate           25       5.80444      5.05263      6.88184

    -------------------------STATES WITH HIGH DEFICIENCY RATES-------------------------------
                    Variable                N         Mean        Minimum      Maximum
                   Deficiency rate        13        8.93332      7.03797     11.24108




Deficiency Trends and Survey and Certification Process Consistency       37                                  OEI-02-01-00600
                                                                                                                APPENDIX F

                 4009.1 Federal Minimum Qualification Standards For Long Term Care (LTC) Facility Surveyors

               Sections 1819(g)(2)(C)(ii), 1819(g)(2)(E)(iii), 1919(g)(2)(C)(ii), and 1919(g)(2)(E)(iii) of the Act require that
               individual members of long term care (LTC) survey teams meet minimum qualifications, established by the
               Secretary, and successfully complete a training and testing program in survey and certification techniques.
               In addition, LTC surveyors must successfully complete a training and testing program, which includes the
               Surveyor Minimum Qualifications Test (SMQT).

               A. Purpose.--The SMQT is part of the training and testing program and addresses the
                  knowledge, skills, and abilities needed to conduct standard and extended surveys in LTC
                  facilities.

               B. Prerequisites.--Prior to taking the SMQT, a LTC surveyor must complete the CMS
                  Orientation Program, and the Basic Long Term Care Health Facility Surveyor Training Course.

               C. Test Composition.--The SMQT is composed of two modules:

                           1. Module A.--Includes the following LTC facility survey tasks:
                                    o Offsite Survey Preparation;
                                    o Entrance Conference and Onsite Preparatory Activities;
                                    o Initial Tour;
                                    o Resident Sampling;
                                    o Environmental Assessment (including the environmental aspects of Dietary
                                      Services);
                                    o Quality of Life Assessment;
                                    o Information Analysis and Decision Making; and
                                    o Exit Conference.

                           2. Module B.--Includes:
                                    o Resident Review (including resident assessments and plans of care);
                                    o Closed Record Review;
                                    o Nutritional Aspects of Dietary Services System Assessment; and
                                    o Medications Review.

               D. Successful Performance.--
                        1. Successful Completion of Module A.--An individual must successfully
                           complete Module A to be a member of a LTC facility survey team.
                        2. Successful Completion of Module B.--Individuals who are expected by the state agency
                           to conduct the tasks addressed by Module B may survey these areas only after
                           they successfully complete both Module A and Module B. Specific individual
                           survey assignments are at your discretion.




Deficiency Trends and Survey and Certification Process Consistency     38                                          OEI-02-01-00600
                                                                          APPENDIX G




Deficiency Trends and Survey and Certification Process Consistency   39   OEI-02-01-00600
Deficiency Trends and Survey and Certification Process Consistency   40   OEI-02-01-00600
Deficiency Trends and Survey and Certification Process Consistency   41   OEI-02-01-00600
                                      ACKNOWLEDGMENTS

    This report was prepared under the direction of John I. Molnar, Regional Inspector General for
    Evaluation and Inspections in the New York Regional Office, and Jodi Nudelman, Assistant Regional
    Inspector General. Other principal Office of Evaluation and Inspections staff who contributed include:

    Demetra Arapakos, Project Leader                                      Sandy Khoury, Program Specialist, Division

    Patricia Banta, Lead Analyst                                          of Medicare and Medicaid, Baltimore

    Danielle Fletcher, Lead Analyst

    Thomas Zimmermann, Program Analyst

    Renee Dunn, Former Deputy Inspector General



    Technical Assistance

    Brian Ritchie, Director Technical Support Staff, Baltimore

    Barbara Tedesco, Mathematical Statistician, Baltimore

    Scott Horning, Program Analyst

    Linda Moscoe, Program Analyst

    Robert L. Gibbons, Program Analyst, San Francisco





                                          For information or copies of this report, please contact

                                                    the Office of Inspector General’s

                                                 Public Affairs office at (202) 619-1343.


                           Reports are also available on the World Wide Web at our home page address:

                                                      http://www.oig.hhs.gov





Deficiency Trends and Survey and Certification Process Consistency   42                               OEI-02-01-00600
